      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                       Washington, D.C. 20201




September 22, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Advocates for Children and
               Families, Inc. (A-06-10-00060)


Attached, for your information, is an advance copy of our final report on Advocates for Children
and Families, Inc.’s (the Grantee) compliance with Head Start health and safety standards. We
will issue this report to the Grantee within 5 business days. The Administration for Children and
Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-10-00060.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

September 24, 2010

Report Number: A-06-10-00060

Ms. Evelyn Burleson
President, Board of Directors
Advocates for Children and Families, Inc.
210 Tilley Street
Port Lavaca, TX 77979

Dear Ms. Burleson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Advocates for Children and Families, Inc. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-10-00060 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Evelyn Burleson


Direct Reply to HHS Action Official:

Mr. Leon R. McCowan
Regional Administrator, Region VI
Administration for Children and Families
U.S. Department of Health & Human Services
1301 Young Street, Room 914
Dallas, TX 75202-5433
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF HEAD START HEALTH
  AND SAFETY STANDARDS AT
ADVOCATES FOR CHILDREN AND
       FAMILIES, INC.




                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-06-10-00060
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start and Early Head Start
programs. We refer collectively to both programs as “the Head Start program.” In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund the program’s regular operations. The
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an
additional $2.1 billion for the Head Start program during FYs 2009 and 2010.

Advocates for Children and Families, Inc. (the Grantee), is a nonprofit organization with
headquarters in Victoria, Texas. The Grantee’s mission is to improve the lives of children and
families by providing early childhood education and family development services. The Grantee
operates a Head Start program at 17 State-licensed facilities in 6 central Texas counties. For
program year March 2009 through February 2010, OHS awarded approximately $4.2 million in
Federal Head Start funds to the Grantee to provide services to 686 children. On July 10, 2009,
the Grantee also received $333,341 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of February 2010:

   •   The files on 28 of the Grantee’s 130 employees did not contain evidence of all required
       background checks. The files on the 102 remaining employees contained evidence of the
       required background checks. However, the Grantee did not always request these checks
       when they were due.

   •   Thirteen of the Grantee’s fifteen childcare facilities that we visited did not meet all
       Federal Head Start and State requirements on protecting children from unsafe materials
       and equipment.

   •   Seven of the Grantee’s fifteen childcare facilities that we visited did not provide a fully
       secure environment for the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.




                                                 i
RECOMMENDATIONS

We recommend that the Grantee share this report with Community Development Institute (CDI),
which currently operates the Grantee’s Head Start program, to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.

GRANTEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee stated that it had no staff to verify whether
the deficiencies noted in the report had been corrected because ACF had suspended financial
assistance to the Grantee’s Head Start program. The Grantee added that CDI, ACF’s national
interim management contractor, would operate the Head Start program during the suspension.
The Grantee’s comments are included in their entirety as Appendix B.

We have revised our recommendations to reflect CDI’s role during the grant suspension period.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal and State Requirements for Head Start Grantees ..............................1
              Advocates for Children and Families, Inc. ...…. ...........................................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          EMPLOYEE BACKGROUND CHECKS ................................................................3
              Federal and State Requirements.....................................................................3
              Grantee’s Compliance With Background Check Requirements ....................4

          MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY............5
              Federal and State Requirements.....................................................................5
              Grantee’s Compliance With Federal and State Requirements .......................6

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............10

          RECOMMENDATIONS ...........................................................................................10

          GRANTEE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .............................................10

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY AND
             FACILITY SECURITY REQUIREMENTS

          B: GRANTEE COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as “the Head Start program.”

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In Texas, childcare centers must comply with the Texas Administrative Code, Title 40, part 19,
chapters 745 and 746, and the Texas Human Resources Code, chapter 42.

Advocates for Children and Families, Inc.

Advocates for Children and Families, Inc. (the Grantee), is a nonprofit organization with
headquarters in Victoria, Texas. The Grantee’s mission is to improve the lives of children and
families by providing early childhood education and family development services. The Grantee
operates a Head Start program at 17 State-licensed facilities in 6 central Texas counties. For
program year March 1, 2009, through February 28, 2010, OHS awarded approximately
$4.2 million in Federal Head Start funds to the Grantee to provide services to 686 children. On
July 10, 2009, the Grantee also received $333,341 in Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of February 2010. To gain
an understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from February 22 through 24, 2010, at the Grantee’s administrative
office in Victoria, Texas, and at 15 of its 17 childcare facilities located in the Texas towns of
Victoria, Port Lavaca, Edna, Gonzales, Waelder, Nixon, Cuero, Yorktown, Yoakum, and
Hallettsville. 1

Methodology

To accomplish our objective, we:

       •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

       •   reviewed Federal and State laws, requirements, and policies related to Federal grant
           awards and the Head Start program;

       •   reviewed the Grantee’s current Head Start grant award information;

       •   reviewed the Grantee’s files on all 130 current Head Start employees; 2

       •   reviewed the Grantee’s documentation of fire and sanitation inspections;

       •   visited 15 of the Grantee’s 17 childcare facilities; and

       •   discussed our preliminary findings with Grantee officials.

1
    We did not review the Vickers and Gonzales 3 Head Start centers.
2
    The 130 current employees were partially or fully funded by the Head Start grant award.


                                                           2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of February 2010:

   •   The files on 28 of the Grantee’s 130 employees did not contain evidence of all required
       background checks. The files on the 102 remaining employees contained evidence of the
       required background checks. However, the Grantee did not always request these checks
       when they were due.

   •   Thirteen of the Grantee’s fifteen childcare facilities that we visited did not meet all
       Federal Head Start and State requirements on protecting children from unsafe materials
       and equipment.

   •   Seven of the Grantee’s fifteen childcare facilities that we visited did not provide a fully
       secure environment for the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.

EMPLOYEE BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

The Texas Administrative Code, chapter 745, rules 601 through 753, outlines the requirements
for background checks on employees at childcare centers. Rule 745.615 requires that
background checks be performed as part of an applicant’s initial employment process. Three
types of background checks required by this rule include (1) a name-based check of the State’s
database of crimes committed in the State, (2) a check of the State’s central registry for instances
of child abuse or neglect, and (3) a fingerprint-based check of the Federal Bureau of
Investigation database of crimes committed in the United States.


                                                 3
Rule 745.615 requires that background checks be performed on all persons aged 14 or older,
other than clients of the operation, who will regularly or frequently be present at the operation
while children are in care. The name-based check and the child abuse or neglect registry check
must be repeated every 24 months. According to the Texas Department of Family and Protective
Services’ Implementation Progress Report, 3 the State phased in a rollout schedule to address the
one-time fingerprint-based check requirement. 4 The State’s rollout schedule began requiring the
fingerprint-based check for certain new employees on September 1, 2007, and required this
check to be completed no later than September 1, 2009, for all employees and persons who
regularly or frequently stayed or worked at the facility.

Grantee’s Compliance With Background Check Requirements

As of February 2010, the files on 28 of the Grantee’s 130 employees did not contain evidence of
a fingerprint-based criminal record check. Of the 28 employees, 16 (2 teachers, 3 teacher aides,
3 substitute teachers, 7 kitchen helpers/cooks, and 1 speech therapist) held positions having
routine contact with children.

Although the Grantee had obtained all 3 types of background checks on the 102 remaining
employees, the Grantee did not always request these checks when they were due. As shown in
the table below, the Grantee did not request initial background checks on 66 employees (19
teachers, 28 teacher aides, 10 center directors, and 9 cooks/kitchen helpers) for as long as 6 years
and 6 months after they were hired.

            Length of Time Employees Worked Without Initial Background Checks

                       Time Employed Without an Initial                   Number of
                                Background Check                          Employees
                       30 days or less                                       19
                       31 to 364 days                                        33
                       1 year to 6 years and 6 months                        14
                         Total                                               66

Another three employees (administrative staff who did not have routine contact with children)
did not have their initial criminal record checks requested for up to 6 years after they were hired.

In addition, the Grantee did not request 24-month and/or fingerprint-based checks on 32
employees in a timely manner. These lapses ranged from 2 days to 1 year and 11 months.

By not ensuring that all employees had timely background checks, the Grantee potentially
jeopardized the safety of children in its care.

3
 SB 758 Implementation Progress Report: A Report From the Texas Department of Family and Protective
Services, issued Sept. 1, 2009.
4
 Texas Administrative Code rule 745.630 does not require this check to be repeated if a person has a fingerprint-
based criminal history on record with the Texas Department of Family and Protective Services and if less than 24
months have passed since a name-based criminal history check was resubmitted.


                                                         4
MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)), grantees must provide for the
maintenance, repair, safety, and security of all Head Start facilities, materials, and equipment.
Pursuant to 45 CFR 1304.53(a)(10)(viii), grantees must ensure that indoor and outdoor premises
are cleaned daily and kept free from undesirable and hazardous materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start requirements or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

Texas Administrative Code rule 746.3701(1) requires that electrical outlets accessible to children
younger than 5 years of age have childproof covers or safety outlets. Rule 746.3407 requires
childcare centers to repair and maintain buildings, grounds, and equipment and to keep all
cleaning supplies and other toxic materials out of the reach of children. Rule 746.4601(9) states
that platforms more than 20 inches high on which prekindergarten and younger children play
must be equipped with protective barriers sufficient to prevent children from crawling over or
falling through the barriers. Rules 746.4305 and 746.4307 require childcare centers to ensure
that play areas have a fence that is at least 4 feet high and have at least two exits. Furthermore,
rule 746.4001 requires that first aid kits be available in each building, and rule 746.4003 lists
antiseptic solution or wipes among the required contents.

Rule 746.5307 requires each center to inspect fire extinguishers monthly. Rule 746.5205
requires that monthly fire drills and biannual severe weather drills be performed and
documented. Documentation of the drills must include the date and time of the drills and the
time it took to evacuate or relocate. Additionally, rules 746.5319 and 746.5537 require each
center to test and document testing of all smoke detectors and battery-operated carbon monoxide
detectors monthly.

The Texas Department of Family and Protective Services Minimum Standards for Licensed
Child-Care Centers state:

      Supervision alone cannot prevent all accidents and injuries, therefore the
      environment must be free of health and safety hazards to reduce risks to children.
      Additional examples of hazards to children include: sharp scissors, plastic bags,
      knives, cigarettes, matches, lighters, flammable liquids, drugs/medications, sharp
      instruments such as an ice pick, power tools, cleaning supplies, chemicals and other
      items labeled keep out of the reach of children. 5



5
 Section 42.042 of the Texas Human Resources Code requires the Texas Department of Family and Protective
Services to establish minimum standards for childcare centers.


                                                      5
Grantee’s Compliance With Federal and State Requirements

Our visits to 15 of the Grantee’s facilities found that 13 did not meet all Federal Head Start and
State health and safety requirements on protecting children from unsafe materials and
equipment. In addition, 7 of the 15 facilities did not provide a fully secure environment for the
children in their care. We defined “facility security” as limiting public access to the facilities
and preventing children from leaving the facilities.

Creekstone (visited February 23, 2010)

       •   The jungle gym had platforms more than 20 inches high without protective barriers
           sufficient to prevent children from crawling over or falling through the barriers
           (Appendix A, Photograph 1).

       •   A small board with a jagged edge was wedged between the building and a playground
           fencepost (Appendix A, Photograph 2).

       •   The playground fence was missing boards, creating spaces large enough for a child to
           exit the playground and enter the parking lot of an adjacent apartment complex
           (Appendix A, Photograph 3) or to enter an area housing the air conditioning unit. 6

       •   One area of the playground fence, as measured from inside the playground, was less than
           4 feet high.

       •   The playground had low levels of loose-fill surface material, exposing children to
           possible injury from a hard surface.

       •   A piece of concrete lay on the ground along the playground fence, exposing children to
           possible injury from a hard surface.

Trinity (visited February 23, 2010)

       •   The first aid kit in one classroom did not contain antiseptic solution or wipes.

       •   A large piece of sheet metal with sharp edges was behind a storage shed on the
           playground (Appendix A, Photograph 4).

       •   An unlocked cabinet under the sink in a children’s bathroom had accumulated grime and
           contained dead cockroaches, a toilet brush, an unplugged electrical cord, and a glue trap
           (Appendix A, Photograph 5).

       •   An electrical outlet in one classroom lacked protective caps.



6
    The center director told us that a work order had been submitted to repair the fence.


                                                             6
   •   A partially exposed tree stump and metal stakes used to secure plastic edging on the
       playground exposed children to possible injury (Appendix A, Photograph 6).

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from a hard surface.

Cuero (visited February 22, 2010)

   •   A container of detergent was stored in an unlocked bathroom sink cabinet that was
       accessible to children (Appendix A, Photograph 7).

   •   An electrical outlet in one classroom lacked protective caps.

   •   A hammer was left unattended on a handrail leading to the building entrance. The
       hammer was removed during our visit (Appendix A, Photograph 8).

   •   A shed on the playground had sheet-metal siding with sharp edges protruding outward at
       one corner (Appendix A, Photograph 9).

   •   Low levels of loose-fill surface material exposed a plastic liner. The hard surface
       exposed children to possible injury, and the liner presented a tripping hazard
       (Appendix A, Photograph 10).

   •   The playground had only one exit.

   •   The facility did not have documentation that it had performed monthly fire drills,
       biannual severe weather drills, monthly fire extinguisher inspections, or monthly
       inspections of smoke detectors.

Edna (visited February 23, 2010)

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from a hard surface.

   •   One area of the playground fence, as measured from inside the playground, was less than
       4 feet high.

   •   Lights in a children’s bathroom did not work; the center director informed us that they
       had not worked since November 2009.

   •   The facility did not have documentation that it had performed fire drills since December
       2009, or that one classroom had performed severe weather drills.

   •   Linoleum flooring between a classroom and a children’s bathroom was torn, creating a
       tripping hazard.



                                                7
Nixon (visited February 22, 2010)

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from concrete at the base of playground equipment (Appendix A,
       Photograph 11).

   •   The base of a building wall accessible from the playground had jagged concrete edges,
       exposing children to possible injury (Appendix A, Photograph 12).

   •   Part of the exterior front wall of the facility had deteriorated, creating a space large
       enough for children to crawl under the building (Appendix A, Photograph 13).

   •   One area of the playground fence, as measured from inside the playground, was less than
       4 feet high.

Yorktown (visited February 22, 2010)

   •   Concrete at the base of playground equipment was not covered by loose-fill surface material,
       exposing children to possible injury.

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from a hard surface.

Depot (visited February 22, 2010)

   •   Wood planks with exposed nails were separated from the base of a shed on the
       playground (Appendix A, Photograph 14).

   •   A children’s bathroom in a portable building had deteriorated flooring, posing a tripping
       hazard (Appendix A, Photograph 15).

   •   Children could crawl under a portable building resting on concrete blocks on the
       playground.

Terrace (visited February 22, 2010)

   •   An electrical outlet in a classroom lacked protective caps, and an electrical outlet in a
       common area was not secured to the wall (Appendix A, Photograph 16).

   •   Overturned playground benches exposed children to metal legs that lacked protective
       caps on the ends (Appendix A, Photograph 17).

   •   An unlocked classroom cabinet filled with bottled drinking water also contained an
       unlabeled plastic spray bottle. A classroom teacher said that the bottle contained a
       cleaning solution (Appendix A, Photograph 18).



                                                  8
   •   A playground gate leading to the facility’s air conditioning units was open. A board on
       top of the air conditioning units had an exposed nail (Appendix A, Photograph 19).

   •   The facility was more than 2 months overdue for its monthly fire drill. The last
       documented fire drill was on December 8, 2009.

Gonzales 1 (visited February 22, 2010)

   •   An electrical outlet in a classroom lacked protective caps.

   •   Toys, chairs, and other items stacked on top of a storage bin outside a door leading to the
       playground created a toppling hazard (Appendix A, Photograph 20).

   •   Disinfectant spray was left unattended on a computer table in a classroom.

   •   One area of the playground fence, as measured from inside the playground, was less than
       4 feet high.

Gonzales 2 (visited February 22, 2010)

   •   A playground gate that led to the facility’s air conditioning units was open.

   •   A playground gate that led to an adjacent neighborhood was open.

Halletsville (visited February 23, 2010)

   •   Liquid on a children’s bathroom floor posed a slipping hazard (Appendix A, Photograph
       21).

   •   A power strip in a classroom lacked protective caps.

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from a hard surface.

Port Lavaca 1 (visited February 23, 2010)

   •   The facility did not have documentation that it had performed any severe weather drills.

Port Lavaca 2 (visited February 23, 2010)

   •   An electrical outlet and a power strip in a classroom lacked protective caps.

   •   Cleaning supplies stored in an unlocked cabinet were accessible to children through an
       open kitchen door (Appendix A, Photograph 22).

   •   The facility did not have documentation that it had performed any severe weather drills.


                                                9
Waelder (visited February 22, 2010)

   •   Cleaning supplies stored in an unlocked bathroom sink cabinet were accessible to
       children (Appendix A, Photograph 23).

   •   The playground had low levels of loose-fill surface material, exposing children to
       possible injury from a hard surface.

By not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the safety of children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements.

RECOMMENDATIONS

We recommend that the Grantee share this report with Community Development Institute (CDI),
which currently operates the Grantee’s Head Start program, to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.

GRANTEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee stated that it had no staff to verify whether
the deficiencies noted in the report had been corrected because ACF had suspended financial
assistance to the Grantee’s Head Start program. The Grantee added that CDI, ACF’s national
interim management contractor, would operate the Head Start program during the suspension.
The Grantee’s comments are included in their entirety as Appendix B.

We have revised our recommendations to reflect CDI’s role during the grant suspension period.




                                                10
APPENDIXES
                                                                                Page 1 of 12


   APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
            SAFETY AND FACILITY SECURITY REQUIREMENTS




Photograph 1 – Taken at Creekstone on 2/23/10 showing jungle gym platforms more than
20 inches high without protective barriers sufficient to prevent children from crawling over
or falling through the barriers.
                                                                              Page 2 of 12




Photograph 2 – Taken at Creekstone on 2/23/10 showing a small board with a jagged edge
that was wedged between the building and a playground fencepost.




Photograph 3 – Taken at Creekstone on 2/23/10 showing a board missing from the
playground fence. The space was large enough for a child to exit the playground and enter
the parking lot of an adjacent apartment complex.
                                                                              Page 3 of 12




Photograph 4 – Taken at Trinity on 2/23/10 showing a large piece of sheet metal with sharp
edges behind a storage shed on the playground.




Photograph 5 – Taken at Trinity on 2/23/10 showing the interior of an unlocked bathroom
cabinet that had accumulated grime, dead cockroaches, a toilet brush, an unplugged
electrical cord, and a glue trap.
                                                                             Page 4 of 12




Photograph 6 – Taken at Trinity on 2/23/10 showing a partially exposed tree stump and a
metal stake used to secure plastic edging on the playground.




Photograph 7 – Taken at Cuero on 2/22/10 showing a container of detergent stored in an
unlocked bathroom sink cabinet accessible to children.
                                                                           Page 5 of 12




Photograph 8 – Taken at Cuero on 2/22/10 showing a hammer on a handrail leading to the
building entrance.




Photograph 9 – Taken at Cuero on 2/22/10 showing a shed on the playground that had
sheet-metal siding with sharp edges protruding outward at one corner.
                                                                               Page 6 of 12




Photograph 10 – Taken at Cuero on 2/22/10 showing low levels of loose-fill surface
material, which exposed a plastic liner.




Photograph 11 – Taken at Nixon on 2/22/10 showing concrete at the base of playground
equipment.
                                                                               Page 7 of 12




Photograph 12 – Taken at Nixon on 2/22/10 showing concrete with jagged edges at the base
of a building wall accessible from the playground.




Photograph 13 – Taken at Nixon on 2/22/10 showing a deteriorated portion of the facility’s
front wall and the resulting space that was large enough for children to crawl under the
building.
                                                                             Page 8 of 12




Photograph 14 – Taken at Depot on 2/22/10 showing wood planks with exposed nails at the
base of a shed on the playground.




Photograph 15 – Taken at Depot on 2/22/10 showing deteriorated flooring in a portable
building’s bathroom.
                                                                             Page 9 of 12




Photograph 16 – Taken at Terrace on 2/22/10 showing an electrical outlet in a common
area that was not secured to the wall.




Photograph 17 – Taken at Terrace on 2/22/10 showing overturned playground benches,
which exposed children to metal legs without protective caps on the ends.
                                                                              Page 10 of 12




Photograph 18 – Taken at Terrace on 2/22/10 showing an unlocked classroom cabinet filled
with drinking water and an unlabeled plastic spray bottle containing a cleaning solution.




Photograph 19 – Taken at Terrace on 2/22/10 showing an open playground gate leading to
the facility’s air conditioning units. A board on top of the air conditioning units had an
exposed nail.
                                                                             Page 11 of 12




Photograph 20 – Taken at Gonzales 1 on 2/22/10 showing items stacked unsafely on top of a
storage bin outside a door leading to the playground.




Photograph 21 – Taken at Halletsville on 2/23/10 showing liquid on a bathroom floor.
                                                                            Page 12 of 12




Photograph 22 – Taken at Port Lavaca 2 on 2/23/10 showing cleaning supplies in an
unlocked kitchen cabinet accessible to children.




Photograph 23 – Taken at Waelder on 2/22/10 showing cleaning supplies in an unlocked
bathroom cabinet accessible to children.
                APPENDIX B: GRANTEE COMMENTS 





September 1, 20 10

Report Num ocr: A-06-10-00060

Patricia Wh.!eler
Regional Inspector Gcm:ral
 f or Audit Services
Office of Audit Services, Region VI
1300 Commerce Street. Room 632
Dallas, TX 75242




At the present ti me, the Department of Heal1h & Human Services, Administration for
Children and Families, has s ll~pc ndcd financial as~ i stan cc to OUT program ; and, therefo re
ACF I has no stafr lo gath er infOnllation to verify that deficiencies have been corrected.

During thi ~ Slispens ion th e operation of lhi5 program has been tak en ov<:r by Communit ),
Dew\opmem Institute (COl) • a national illlcrim management cont rtlct Of. It is my
und erstandin g that COl personnel is going through licensing procedures which are
ro::quin::d prior \0 opening the cenkrs for operation. 'Ille inrormation rrom these
procedures is not available to ACFl. Mark Elliott is CDl's Program Support Specialist at
Email : rne ll iott((j)cditewn.org., (80 I )592-8240, fax (80 I )766-8942. In all pro\)<lbiliI Y,
th ese defic i encie ~ will be or have b.::en corrected by CD! in order ror th.::m 10 operal.:: the
centers in question.

Ir I may be orrurther a~sistanc.::, pl.::ase ldllle know. I would like to say rurth.::r that I
appreciated Sylvie Witten "s helpfulness to me.

S incerely,

Evelyn Burleson, President
Board of Directors
2 10 Tilley Street
Port L.waca TX 77979
361.552.2791
Ebu2954@hotma il.com

CERTIF IED !...IAIL
REl1JRN RECEIPT REQUESTED
